<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 116-17]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 116-17
 
                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 5, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
36-312 PDF                WASHINGTON : 2019             
       
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 5, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     5
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................    11
Booker, Hon. Cory A., U.S. Senator from the State of New Jersey..    12
Sullivan, Hon. Dan, U.S. Senator from the State of Alaska........    12
Markey, Hon. Edward J., U.S. Senator from the State of 
  Massachusetts..................................................    15

                   LEGISLATION AND RELATED MATERIALS

Text of S. 268, To reauthorize the Partners for Fish and Wildlife 
  Program and certain wildlife conservation funds, to establish 
  prize competitions relating to the prevention of wildlife 
  poaching and trafficking, wildlife conservation, the management 
  of invasive species, and the protection of endangered species, 
  to amend the Marine Turtle Conservation Act of 2004 to modify 
  the protections provided by that Act, and for other purposes...    18
Text of S. 163, To prevent catastrophic failure or shutdown of 
  remote diesel power engines due to emission control devices, 
  and for other purposes.........................................    82
Text of S. 94, To amend the Pittman-Robertson Wildlife 
  Restoration Act to facilitate the establishment of additional 
  or expanded public target ranges in certain States.............    84
Text of S. 310, To amend the Neotropical Migratory Bird 
  Conservation Act to reauthorize the Act........................    91
Nomination Reference and Report Receipts:
    Presidential Nomination 2. Nicole R. Nason, of New York, to 
      be Administrator of the Federal Highway Administration, 
      vice Gregory Guy Nadeau....................................    93
    Presidential Nomination 22. Andrew Wheeler, of Virginia, to 
      be Administrator of the Environmental Protection Agency, 
      vice Scott Pruitt..........................................    94
    Presidential Nomination 78. John Fleming, of Louisiana, to be 
      Assistant Secretary of Commerce for Economic Development, 
      vice Roy K. J. Williams....................................    95
    Presidential Nomination 79. John L. Ryder, of Tennessee, to 
      be a Member of the Board of Directors of the Tennessee 
      Valley Authority for a term expiring May 18, 2021, vice 
      Michael McWherter, term expired............................    95
    Presidential Nomination 80. Peter C. Wright, of Michigan, to 
      be Assistant Administrator, Office of Solid Waste, 
      Environmental Protection Agency, vice Mathy Stanislaus.....    95
Text of S. Res. 41, Authorizing expenditures by the Committee on 
  Environment and Public Works...................................    96
Committee Resolutions:
    Lease, U.S. Department of Veterans Affairs, San Diego, CA. 
      PCA-01-VA19................................................   101
    Lease, Department of Homeland Security, Secret Service, 
      Brooklyn, NY. PNY-04-BR18..................................   103
    New U.S. Courthouse, Huntsville, AL. PAL-CTC-HU18............   105
    New U.S. Courthouse, Fort Lauderdale, FL. PFL-CTC-FL18.......   106
    Lease, Securities and Exchange Commission, New York, NY. PNY-
      05-NY19....................................................   107
    (Amended.) Construction, U.S. Land Port of Entry, Calexico, 
      CA. PCA-BSC-CA19...........................................   109
Rules of Procedure of the Committee on Environment and Public 
  Works. Adopted February 5, 2019................................   110


                            BUSINESS MEETING

                              ----------                              


                       TUESDAY, FEBRUARY 5, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Rounds, Ernst, Sullivan, Shelby, Braun, 
Cramer, Cardin, Merkley, Gillibrand, Booker, Markey, and Van 
Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    Today we are going to consider five nominees, four bills, 
six General Services Administration resolutions, as well as the 
Committee funding resolution, and the Committee rules.
    Senator Carper and I have agreed that we will begin voting 
promptly at 10:20, and at that time I will call up the items on 
the agenda. We will not debate the items on the agenda while we 
are voting; instead, we will debate the items on the agenda 
before we begin voting at 10:20. I also will be happy to 
recognize any member who still wishes to speak after the voting 
concludes.
    Before we move to the items on the agenda, I would like to 
highlight this Committee's impressive history of working 
together on a bipartisan basis to pass important legislation 
for the American people.
    Last Congress, working closely with Ranking Member Carper 
and all the Committee members, we wrote and passed major water 
infrastructure legislation into law, the American Waters 
Infrastructure Act. It included 29 separate introduced bills. 
We also passed, and the President signed into law, the Nuclear 
Energy Innovation and Modernization Act. This bipartisan bill 
will make sure America remains a leader of nuclear energy 
innovation.
    Last Congress our Committee also passed the Utilizing 
Significant Emissions with Innovative Technologies Act, known 
as the USE IT Act, to support carbon utilization and direct air 
capture research. Look forward to continuing to work together 
to advance this legislation to reduce emissions.
    This Congress our Committee will build on that momentum. We 
will together to write and pass a bipartisan highway bill that 
upgrades America's roads and bridges in a fiscally responsible 
way and will help rural and urban areas alike.
    Our Committee will also continue to focus on wildlife 
management and conservation efforts. Ranking Member Carper and 
I, along with Senators Inhofe, Whitehouse, Boozman, and Booker, 
reintroduced the WILD Act from last Congress, which we will 
consider this morning. I agree with Ranking Member Carper when 
he stated that the WILD Act, he said, would help make the 
United States a global leader on wildlife conservation.
    The Committee will also continue to process nominations. We 
restart that process today by considering the nominations of 
Andrew Wheeler to be the Administrator of the Environmental 
Protection Agency, Nicole Nason to be Administrator of the 
Federal Highway Administration, Peter Wright to be Assistant 
Administrator of the Environmental Protection Agency's Office 
of Land and Emergency Management, John Fleming to be Assistant 
Secretary of Commerce for Economic Development, and John Ryder 
to be a Member of the Board of Directors of the Tennessee 
Valley Authority.
    Each of these nominees is well qualified and will bring a 
wealth of experience and expertise to these important 
positions.
    I would like to say a few words about Andrew Wheeler.
    Mr. Wheeler has served as Deputy Administrator of the 
Environmental Protection Agency since April 2018, when the 
Senate confirmed his nomination with bipartisan support. Just 
last week, 63 agriculture and forestry groups wrote in support 
of Mr. Wheeler's nomination to be the Administrator. They said, 
``It is hard to imagine a more qualified individual for the 
role of EPA Administrator, and we respectfully request that the 
Committee move to confirm his nomination so that he may be 
considered by the full Senate at the earliest possible date.''
    Mr. Wheeler has done an outstanding job leading the 
Environmental Protection Agency these past 6 months. I urge my 
colleagues to vote in support of his nomination to be the 
Administrator.
    This morning we will also consider legislation that enjoyed 
bipartisan support in the 115th Congress. We already mentioned 
the WILD Act. In addition, we will vote on Senator Sullivan's 
Alaska Remote Generator Reliability and Protection Act, Senator 
Capito's Target Practice and Marksmanship Training Support Act, 
and Senator Cardin's Migratory Birds of the Americas 
Conservation Act. Each of these bills passed our Committee by 
voice vote in the last Congress, and I urge all my colleagues 
to support passage of these bills again today.
    Last, we will consider six resolutions to approve 
prospectuses providing for General Services Administration 
leases, our Committee budget resolution, and our Committee 
rules.
    After Ranking Member Carper gives his opening statement, 
other members may make remarks. At 10:20 we will proceed to 
vote on the items on the agenda, provided we have a reporting 
quorum. After we finish voting I will be happy to recognize any 
other member who wishes to speak.
    I now turn to Ranking Member Carper for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    In addition to setting our Committee budget and rules 
today, we will vote today, as the Chairman has said, on four 
pieces of bipartisan legislation, five nominees, and six 
General Service Administration resolutions.
    As our Chairman knows and my colleagues know, I enjoy 
serving with you on this Committee. I especially enjoy serving 
with you on this Committee when we can find consensus on issues 
that clean the air, clean the water, improve public health, and 
provide economic opportunity and job creation. That is the win-
win that I am always looking for, and I think that is true for 
everybody on this Committee.
    The four pieces of legislation we are considering today 
have all passed out of our Committee on a bipartisan basis last 
Congress. I intend to support them again this year.
    Let me take just a moment, if I can, to begin to highlight 
the two bills that I am especially proud to help lead and are 
important for my State of Delaware, and my guess is for a lot 
of neighbors and others on this Committee.
    Migratory Birds of America Conservation Act, led by Senator 
Cardin, would help protect migratory birds, including red 
knots, which migrate annually through Delaware, attracting 
birders literally from all over the world.
    The Wildlife Innovation and Longevity Driver Act, also 
known as the WILD Act, also known as Wild Thing, would 
encourage innovation to protect endangered species, better 
manage human wildlife conflicts, prevent poaching and wildlife 
trafficking, and combat invasive species.
    Three nominees we are considering today were also reported 
out of this Committee last Congress. Two of those are John 
Ryder, nominee to be a Member of the Board of Directors of the 
Tennessee Valley Authority; and John Fleming, nominated to be 
the Assistant Secretary of Commerce for Economic Development.
    The third is Peter Wright, who has once again been 
nominated to serve as EPA Assistant Administrator, leading the 
Office of Land and Emergency Management. I appreciate our 
Chairman's agreement to ensure that, if Mr. Wright is 
confirmed, he will appear before the Committee in short order 
to discuss the Agency's efforts to clean up contaminated 
Superfund sites.
    I also hope that many of the other EPA assistant 
administrators, who this Committee has not seen I think since 
their confirmation hearings, would similarly be invited to 
testify soon.
    In the last Congress, minority staff and I worked with EPA 
to negotiate a set of significant policy concessions that 
enable us to feel comfortable with a quick confirmation process 
for Mr. Wright. EPA has not yet indicated now whether it 
remains willing to make those same commitments, so, for now, I 
will refrain from supporting Mr. Wright's nomination. I hope 
those commitments are forthcoming and soon. Then we can move 
this nomination expeditiously.
    Today we are also considering the nomination of Nicole 
Nason to be Administrator of the Federal Highway 
Administration. It has been more than 2 years since there has 
been an administrator at the agency. I think that is the 
longest gap in leadership in more than 100 years. It is my hope 
that Ms. Nason's nomination is a signal that the Administration 
is ready to work with us in reauthorizing our Nation's surface 
transportation programs, and I hope that Ms. Nason will be a 
real partner with us in that effort.
    I must say I was a bit disappointed that Ms. Nason did not 
clearly commit to sharing materials that I requested at the 
same time they are provided to FOIA requests or House Committee 
chairs as part of her answers for questions for the record. I 
will support her today, but I expect additional clarification 
from her on that matter.
    That brings us to the nomination of Andrew Wheeler, who I 
have known for just about 20 years. I know others here have 
known him for a long time, as well. When Andrew Wheeler was 
named EPA Acting Administrator in July of last year, I sent him 
a letter, I think it was like the next day, urging him to heed 
the lessons of the past and restore the confidence of the 
American people in the Agency's missions to protect our public 
health and our environment. I also cautioned Mr. Wheeler that 
the damage done by Scott Pruitt would not be easily undone.
    It brings me no joy to say today that he has not done what 
I hoped he would do in a number of important respects; not all 
respects, but a number of important respects. In fact, in many 
instances Mr. Wheeler has gone further than his predecessor in 
his rejection of important measures that are supported by a 
broad list of environmentalists and industry--and industry.
    For example, Mr. Wheeler has decided to ignore the course 
of coal fired utilities public, health, and religious leaders 
who have urged the Trump administration to keep the Mercury and 
Air Toxics Standards Rule in place and effective. In fact, 
under Mr. Wheeler's leadership, EPA has issued an unnecessary 
proposal that undermines the legal foundation of MATS, which 
puts the entire rule in legal jeopardy. The proposal also 
requests comment on whether the standards should be rescinded 
altogether.
    In this MATS rollback proposal, EPA is woefully ignoring 
the actual benefits of reducing air toxics that permanently 
damage children's brains and cause cancer and ignoring the fact 
that the compliance costs were a third of what were originally 
estimated.
    On another front, despite the repeated requests to 
negotiate a reasonable compromise on fuel economy and 
greenhouse gas tailpipe standards, under Mr. Wheeler's lead, 
EPA is moving forward to finalize a proposal that all but 
freezes standards in place for the better part of a decade and 
all but ensures that the auto industry spends the next half-
dozen years or so embroiled in litigation with California and a 
dozen other States.
    Let me say to my colleagues when I was elected State 
Treasurer of Delaware in 1976, I worked to save a Chrysler 
plant in Newark, Delaware. I worked for 30 years to save that 
plant. Four thousand people worked at that plant. I worked 30 
years to save the GM plant that we had just outside of 
Wilmington, Delaware. For years I have fought to try to make 
sure that our auto industry in this country is competitive with 
the rest of the world.
    With respect to fuel efficiency standards and a path 
forward, they are united in saying that they want a 50 State 
deal. You have heard me say this many times. They want a 50 
State deal. Andrew Wheeler sat here and said he wants a 50 
State deal, too, with California at the table.
    The last thing the auto industry needs in this country to 
be successful and profitable is to spend the next half-dozen 
years or so in court locked up with California and a bunch of 
other States, while the rest of the automakers and the rest of 
the world move forward to producing and building the kind of 
vehicles that the world is going to be buying in the year 2030.
    So, I am very, very frustrated in this regard. This is a 
win-win situation where we can get good things for this planet 
by actually making sure that we don't somehow screw up the 
regulation that is in place for fuel efficiency standards, 
CAFE. We can preserve what is necessary, give them some 
flexibility in the near term in the early years and then crank 
it up on the outer years when they are going to be building 
electric powered vehicles and fuel cell powered vehicles to 
beat the band to compete with the rest of the world.
    I will just say, Mr. Chairman, I will wrap it up with this. 
I want us to slow this down just a little bit. Mr. Wheeler has 
been nominated for this post. His nomination is good for 210 
days. We are 183 days into that nomination, 183 days. Excuse 
me; we are 27 days, 27 days into that nomination. There are 183 
days to go. For God's sake, slow it down. If we report him out, 
I think we will report him out today.
    The idea of a rush to judgment to get him up on the floor 
before we have an opportunity to make sure that five of the 
issues, including the two I have just mentioned here, where we 
actually do good things for the planet, and we also provide for 
enhanced economic opportunity. Give us a chance to make sure 
that those are going to be locked in. That is what my request 
would be.
    Thank you very much.
    Senator Barrasso. Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Mr. Chairman, first, I want to thank you 
for including in today's markup the Neotropical Migratory Bird 
Conservation Act. This is a bill that, as you pointed out, had 
previously been approved by voice vote by this Committee. I 
want to thank Senator Portman, who has been my cosponsor, and 
many members of this Committee that help in regard to 
neotropical migratory birds.
    More than half of all species found in the United States 
are migratory birds, so it is key to our ecosystem. This bill 
provides for education, research, monitoring, and habit 
protection for more than 350 species of migratory birds, 
including the Baltimore Oriole, which I have talked about 
before, which is endangered in more than one respect. The bird 
itself is endangered, plus the baseball team is endangered. So, 
we can use all the help we can get in this regard, and I thank 
the Committee for its support.
    Senator Barrasso. We will refer that other part to the 
Commerce Committee.
    [Laughter.]
    Senator Cardin. I talked to the Chairman and staff before 
we started this meeting. We do have some GSA resolutions today, 
and I am going to support all the GSA resolutions. Included in 
there are two courthouses, new courthouses, one for Huntsville, 
Alabama, the total cost of which is $86 million; and one for 
Fort Lauderdale, Florida, the total cost is $190 million.
    Our Committee is responsible for these GSA resolutions. I 
know the staff is arranging for GSA to come in and explain the 
processes that are used in regard to these resolutions. I 
particularly request that we focus on courthouse selection. I 
pointed out that, in Maryland, the Baltimore courthouse was 
scheduled for No. 1 for replacement. It is a terribly designed 
courthouse. That was about 15 years ago, and today it is off 
the list. I just think it would be useful for our Committee to 
understand the process that is used for selecting new 
courthouses in this country.
    I thank the Chairman for his cooperation, and I look 
forward to that briefing.
    Senator Barrasso. Thank you, Senator Cardin. That has 
already been arranged, and we are working on the schedule.
    Any other Senators like to be recognized?
    Senator Van Hollen. Mr. Chairman, would this be the 
appropriate time to say something else about GSA?
    Senator Barrasso. Please.
    Senator Van Hollen. I appreciate the attention you and the 
Ranking Member and my colleague from Maryland have given to the 
issue of the new FBI building. As you know, we are still 
waiting for a prospectus from the FBI. Senator Cardin and I and 
others have shared our concerns about the fact that the FBI and 
the GSA had been headed in the direction of a new campus that 
met all the security requirements and consolidation 
requirements. There were three sites; one they were looking at 
in Virginia, two in Maryland. The Administration pulled the rug 
out from under that.
    I just want to bring to the Committee's attention the fact 
that the appropriation bills that had been not yet passed, but 
supported on a bipartisan basis in the House and the Senate, 
request that the prospectus also include an analysis of one of 
those three previous sites, so not just a consolidation at the 
existing site in Washington, DC, but also include a prospectus 
on one of the other sites.
    Senator Barrasso. Thank you, Senator Van Hollen.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me make the other side of Andrew Wheeler. I would like 
to comment that one of the most gratifying things that I saw 
was, when he was first nominated, and we first acted on him in 
this Committee, we went over to his committee that he is going 
to be the director of and there must have been 300 people 
there, the people that were there when he first came to work. 
Here is a guy who spent his whole life in environment and 
public works in the EPA and all that activity. We are very 
proud. I wouldn't want to hesitate and delay it at all; I think 
we need to get him on the job and working.
    Thank you, Mr. Chairman.
    Senator Barrasso. Now that enough members have arrived, and 
I promised we would vote promptly at 10:20, but I will stay for 
additional comments from other members afterwards, I would like 
to move to the votes on the items on today's agenda.
    The Ranking Member and I have agreed to bring up three 
nominees for separate votes, and the Ranking Member has 
requested that each of these nominees receive a roll call vote.
    The Ranking Member and I have agreed to vote on two 
nominees, four bills, six GSA resolutions, the Committee rules, 
and the budget resolution en bloc by voice vote. Members may 
choose to have their votes recorded for a specific item in that 
bloc after the voice vote.
    I would like to first call up Presidential Nomination 22, 
Andrew Wheeler, of Virginia, to be Administrator of the 
Environmental Protection Agency.
    I move to approve and report the nomination favorably to 
the Senate.
    Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mr. Braun.
    Senator Braun. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Carper. Proxy votes no. Cardin votes no.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Mr. Cramer.
    Senator Cramer. Yes.
    The Clerk. Ms. Duckworth.
    Senator Carper. Senator Duckworth votes no by proxy.
    The Clerk. Ms. Ernst.
    Senator Ernst. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. No.
    The Clerk. Mr. Whitehouse.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 11; the nays are 10.
    Senator Barrasso. We have approved the nomination of Mr. 
Wheeler to be Administrator of the Environmental Protection 
Agency, which will be reported to the full Senate for approval.
    Next, I would like to call up Presidential Nomination 80, 
Peter Wright, of Michigan, to be Assistant Administrator of the 
Environmental Protection Agency.
    I move to approve and report the nomination favorably to 
the Senate.
    Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mr. Braun.
    Senator Braun. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Mr. Cramer.
    Senator Cramer. Yes.
    The Clerk. Ms. Duckworth.
    Senator Carper. No, by proxy.
    The Clerk. Ms. Ernst.
    Senator Ernst. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. No.
    The Clerk. Mr. Whitehouse.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 11; the nays are 10.
    Senator Barrasso. The yeas are 11; the nays are 10. We have 
approved the nomination of Mr. Wright to be Assistant 
Administrator of the Environmental Protection Agency, which 
will be reported to the full Senate for approval.
    Next, I would like to call up Presidential Nomination 78, 
John Fleming, of Louisiana, to be Assistant Secretary of 
Commerce for Economic Development.
    I move to approve and report the nomination favorably to 
the Senate.
    Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mr. Braun.
    Senator Braun. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Carper. Yes, by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. Yes.
    The Clerk. Mr. Cramer.
    Senator Cramer. Yes.
    The Clerk. Ms. Duckworth.
    Senator Carper. Yes, by proxy.
    The Clerk. Ms. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. No.
    The Clerk. Mr. Whitehouse.
    Senator Carper. Yes, by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 15; the nays are 6.
    Senator Barrasso. The yeas are 15; the nays are 6. We have 
approved the nomination of Dr. Fleming to be Assistant 
Secretary of Commerce for Economic Development, which will be 
reported to the full Senate for approval.
    I would like to now call up S. 268, the Wildlife Innovation 
and Longevity Driver Act; S. 163, the Alaska Remote Generator 
Reliability and Protection Act; S. 94, Target Practice and 
Marksmanship Training Support Act; S. 310, Migratory Birds of 
the Americas Conservation Act; Presidential Nomination 2, 
Nicole Nason, of New York, to be Administrator of the Federal 
Highway Administration; Presidential Nomination 79, John Ryder, 
of Tennessee, to be a Member of the Board of Directors of the 
Tennessee Valley Authority; six General Services Administration 
resolutions; the Committee budget resolution; the Committee 
rules en bloc.
    I move to approve and report S. 268, S. 163, S. 94, S. 310, 
Presidential Nomination No. 2, Presidential Nomination 79, and 
the Committee budget resolution favorably to the Senate, and 
approve six GSA resolutions and the Committee rules en bloc.
    Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. All those opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it.
    We have approved S. 268, S. 163, S. 94, S. 310, 
Presidential Nominations 2 and 79, and the Committee budget 
resolution, which will be reported favorably to the Senate. We 
have also approved six GSA resolutions and the Committee rules.
    The voting part of the meeting is concluded. I am going to 
be happy to recognize any member who wishes to make a statement 
on any of the nominations, legislations, resolutions, and other 
matters we just approved.
    I have noted Senator Capito and Senator Sullivan both had 
interest in making comments. We will go back and forth. I think 
Senator Capito, and then Senator Gillibrand, and then Senator 
Sullivan.
    Go right ahead.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman.
    I am very pleased that the Committee considered and 
approved my bill, S. 94, which is the Target Practice and 
Marksmanship Training Support Act, which I introduced with 
Senator Bennett and which has the support of 11 bipartisan 
sponsors.
    The bill would provide needed flexibility for States in 
applying their Pittman-Robertson funds to build and maintain 
public shooting ranges. This will allow greater access to 
public shooting ranges for sportsmen and target shooters for 
gun safety education, target practice, and sighting in 
firearms. Best of all, it achieves this without any budget 
score.
    This legislation moved by voice vote last Congress and is 
also included in the public lands package under consideration 
this week. I am optimistic that it will advance through to 
enactment this Congress, given its strong bipartisan support.
    I would also like to congratulate the five important 
nominees for their leadership roles. I congratulate each of 
them for moving forward and hope the Senate will take up their 
nominations in a timely fashion.
    I would like to highlight my support for Acting 
Administrator Andrew Wheeler to become the Administrator of the 
EPA. The Acting Administrator and his staff have always been 
very responsive to my staff and know the significant concerns I 
have raised in private meetings and in public forums, including 
hearings in this Committee, about the risks posed by a group of 
chemicals known as PFOS. I was troubled by media reports last 
week that an upcoming interagency plan to address PFOS would 
not consider standards for drinking water.
    Mr. Wheeler and his staff came to my office and addressed 
those concerns by pledging to look at all available statutory 
authorities the EPA has been granted by Congress to address 
this potential crisis. With that in mind, and considering other 
policy concerns to West Virginia, I have no concerns supporting 
his nomination. However, I intend to closely track the steps 
EPA and other agencies are taking to address this public health 
and environmental health crisis, which has had a particular 
impact on West Virginians living in affected communities, to 
ensure that the Federal Government is sufficiently responsive 
to their concerns.
    I would also like to take a moment to express my 
appreciation for Mr. Wheeler's emphasis on improving 
transparency and good governance practices at the EPA and 
proposing regulatory solutions that abide by congressional 
intent in statute. The important work he is doing at the Agency 
underscores that economic growth and environmental protection 
need not be at cross purposes.
    West Virginia bore the brunt, more than most States, from 8 
years of bureaucratic red tape coming out of Washington, and 
the recovery from the 2008 recession has been delayed coming to 
Appalachia. The EPA's effort to address the legal deficiencies 
in the Clean Power Plan and Waters of the U.S. rules will go a 
long way to helping our people get back to work, particularly 
in the engineering, manufacturing, construction, and forest 
industries that are essential to West Virginia's economy.
    Thank you very much.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Booker.

           OPENING STATEMENT OF HON. CORY A. BOOKER, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Booker. Thank you very much, Mr. Chairman.
    Mr. Chairman, I have lived and worked my entire 
professional career in low income, vulnerable communities, and 
I really came to the environmental movement more because of 
environmental justice issues than originally on climate issues, 
something always of concern to me.
    But when you live in a community where children suffer from 
lead poisoning, when you live in a community where you can't 
plant in your soil because it is toxic in your own backyard, 
when you live in a community where you have toxic Superfund 
sites within a few miles and live in a community where the air 
is so bad that the asthma rates are multiple times higher than 
other suburban communities, you begin to realize that children 
and young people, as well as the elderly, are being stolen, 
having what should be the birthright of every American stolen 
from them when it comes to clean air, clean water, clean soil, 
and a right to be able to develop and flourish in America by 
having a clean environment.
    Andrew Wheeler, in his brief tenure as Acting Administrator 
at the EPA, his actions have shown that he will be increasing 
water pollution, increasing air pollution, increasing carbon 
emissions that are causing not just global warming, but real 
health risks, from mercury to methane. This is someone who will 
make us less safe, less secure, have more health problems, and 
raise, unfortunately, the worst consequences of pollution, in 
addition to the fact that, as climate change happens, it is the 
vulnerable communities in America that face the most tragic 
consequences, the communities least resilient when these 
weather events occur.
    I cannot support Mr. Wheeler. I voted against him. And I 
will continue to work with environmental justice advocates 
across our country to try to block and stop the rollbacks that 
are ultimately going to hurt human life, undermine the well 
being in communities like mine across the State of New Jersey, 
and unfortunately, set this planet back when it comes to 
addressing the urgent crisis we have with climate change.
    Thank you very much.
    Senator Barrasso. Thank you, Senator Booker.
    Senator Sullivan.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    I just want to commend you and the Ranking Member on the 
continued bipartisan work that gets done on this Committee. I 
appreciate the passage of the Alaska Remote Generator 
Reliability and Protection Act and note that in the last 
Congress, Ranking Member Carper was a cosponsor of that 
important legislation from my State, and I am glad to see that 
moving again.
    I also just want to mention, with regard to Mr. Wheeler, I 
think when you saw his confirmation hearing, the one thing that 
doesn't come out a lot, doesn't get reported in the press, is 
his qualifications from being a career official at the EPA. I 
think he might be the first career EPA official to actually 
have the opportunity to lead the Agency, won a number of awards 
there; and then also his work here on this Committee. So, 
almost 20 years of public service on these important issues.
    I do want to just briefly mention Ranking Member Carper's 
statement about a rush. I have a lot of respect for the Ranking 
Member. As a matter of fact, I have a lot of respect and work 
very closely with all the members of this Committee, Democrats 
and Republicans. I do want to mention, though, one of the kind 
of counterarguments to this idea of a rush is what is happening 
more broadly in the Senate. There has been unprecedented, by 
any historical measure, delay in terms of this President being 
able to get his nominees confirmed.
    If you look at the number of times that the other side has 
required cloture votes, it is literally in the hundreds for the 
first 2 years of this President. There has been no precedent 
ever, ever in the first 2 years of another President, whether 
it is a Democrat, Republican. No one has done this. No one has 
delayed more than my colleagues on the other side. That is a 
fact. The vast majority of these delays are noncontroversial 
Senate confirmed positions; assistant secretaries of HHS, 
ambassadors for the State Department, assistant secretaries of 
Defense. Delay, delay, delay, delay.
    So, my only point is, to my good friend, Senator Carper, 
whom I have worked closely with on a number of issues, the 
argument to say don't rush it would have a little bit more 
credibility if your side has not been delaying so many well 
qualified people who want to serve their country and have been 
waiting for months and months and months; and we start to lose 
good people. We start to lose good people, and we are starting 
to see that.
    So, I would ask my colleagues on the other side, go to the 
minority leader and say, these delays, they are not helping the 
American people. They are certainly not helping the American 
people when this Administration, which was elected, is trying 
to place people in offices that need Senate confirmation to run 
the country.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sullivan.
    Senator Carper.
    Senator Carper. If I could have just a moment to respond.
    I am delighted to serve with you on this Committee, with 
our Chairman, and frankly, everybody who serves on this 
Committee. I like to get things done. I am a recovering 
Governor, as you know, and I like to get things done.
    As a Governor, literally in 8 years--I might be mistaken on 
this--I think every one of my nominees for judges, for 
executive branch positions that required a confirmation, they 
were all confirmed and approved. Eight years unanimously. I am 
one who believes that Governors and Presidents deserve the 
benefit of the doubt in nominations. That doesn't mean we 
should rubber stamp them.
    But as the Chairman knows, we worked very hard at the end 
of last Congress to try to get four senior officials confirmed 
at EPA, and to allow them to be confirmed on a voice vote by 
unanimous consent, and one was held up, as the Chairman knows, 
for reasons beyond my control, our control, and that was the 
nominee Peter Wright. We are taking him up today. My hope is we 
can get that nomination done as long as EPA recommits to what 
they promised to do in anticipation of our confirming of Peter 
Wright.
    I like to say find out what works and do more of that. You 
can look at those four nominations and see what works to 
expedite the processing of those nominations. With Andrew 
Wheeler, there are five issues; there are five issues. They 
include fuel efficiency standards; they include mercury air 
toxic standards; they include something called HFCs, 
hydrofluorocarbons, that we have talked about before; they 
include PFOA, the stuff that gets in water and causes cancer. 
Within 2 years we want a drinking water standard.
    We are not asking for crazy stuff; we are asking for things 
that actually clean the air, clean the water, provide better 
public health, and also provide economic opportunity. That is 
the win-win I am looking for. I think that is the win-win that 
we are looking for.
    Andrew Wheeler's report out of here today, you all have the 
votes officially to get him confirmed in the Senate, I think. 
But I want to make sure, if that happens or when that happens, 
that the five issues that we are raising here have been 
addressed in an appropriate way. We will be better off as a 
people, healthier people. We will also be better economically 
as a people. That is what I want. That is what we want.
    Senator Sullivan. But my broader point to the overall 
delays of many, many qualified candidates, literally hundreds, 
over 100 filibusters--not filibusters, cloture requirements, I 
think it is a very valid one. When I talk to my colleagues on 
the other side of the aisle, a lot of them have reservations 
about what the minority leader has been doing, essentially to 
just delay the confirmation of people just because they want to 
delay it. It is unprecedented, and I think it should stop, and 
I think it makes for stronger arguments from this side to look 
at more issues with regard to Mr. Wheeler.
    I agree on certainly some of the ones you mentioned. I have 
raised a number of those with him in my meetings, but again, 
the broader issue of the unprecedented delay, by any historical 
measure, in the last 2 years. I think it needs to be addressed, 
and I think it gives you more credibility to make these 
arguments if you are not delaying an entire Administration's 
ability to get people to serve their Government who are 
noncontroversial and get confirmed.
    Thank you.
    Senator Barrasso. Before turning to Senator Markey, I would 
point out that Mr. Wheeler has received significant praise from 
former Democrat vice presidential candidate and U.S. Senator 
Joe Lieberman, who served on this Committee, the Environment 
and Public Works Committee, while Mr. Wheeler was a Republican 
staff director. Former Senator Lieberman has called Mr. Wheeler 
fair and professional, and I ask unanimous consent to enter 
that statement in the record, and it will be offered and 
submitted in the record without objection.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Senator Markey.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    It is the EPA's job to protect public health and the 
environment, but sadly, I am concerned that Andrew Wheeler's 
background means that he will never understand that saving coal 
is not part of that mission and not his job.
    Andrew Wheeler has spent years protecting the coal 
industry; first from here, in the Senate, where he worked to 
prevent passage of climate legislation as a Committee staffer; 
then as a lobbyist for Murray Energy, one of the largest coal 
companies in America that has led the fight by the coal 
industry to undo the progress we have made on climate policy; 
and now as the man overseeing a number of proposed regulatory 
actions that would attack the rules that protect public health, 
protect our environment, and protect our climate.
    We should be forcefully fighting against climate change, 
instead of being forced to convince our lead environmental 
protection officer that it is a real threat. For these reasons, 
I oppose Andrew Wheeler's nomination.
    I yield back, Mr. Chairman.
    Senator Barrasso. Thank you. I appreciate your comments.
    I appreciate the contributions of all of the members.
    Senator Carper, any final words before I adjourn the 
Committee?
    Senator Carper. Thanks, Mr. Chairman. I would ask unanimous 
consent to submit for the record letters pertaining to the 
nomination of Andrew Wheeler as Administrator of EPA from 
former Administrators of the Environmental Protection Agency.
    Mr. Chairman, I would just reiterate what I said to our 
colleague from Alaska a minute ago. There is a pretty good 
roadmap that we can follow to lead to the vote on the floor for 
Mr. Wheeler sooner rather than later, and it was, as I 
mentioned, basically executed at the end of the last Congress. 
I don't think we are asking for a lot. We are asking that we 
listen to our automakers in this country, who are saying give 
us certain predictability with respect to fuel efficiency 
standards; not years in court, but certainly predictability so 
that we can compete in the world.
    We are asking for this Committee and for this Congress, for 
EPA to listen to the voices of--with respect to mercury air 
toxic standards, we are asking them to listen to the voices of 
our utilities throughout this country, for the folks who lobby 
on behalf of the utilities, to the Chambers of Commerce, 
National Association of Manufacturers, as well as environmental 
organizations, as well as Moms Air Force for Clean Air and any 
other number of folks on the clean air side.
    We are asking that the companies in this country who have 
actually developed a lot of time and a lot of money in 
alternative follow on product to hydrofluorocarbons to act as a 
refrigerant and a coolant. We have a follow on product invented 
in America by American companies, and we are unable to sell it 
and market it throughout the world because we cannot get a 
treaty, called Kigali, sent by this Administration to us and 
the Senate to consider it. I think we have had at least 13 
Republican Senators who have said to the Administration, send 
us the treaty. Send us the treaty.
    Senator Capito mentioned this today; we have this PFOA 
stuff, a chemical that gets in the water. In my State, we have 
a situation where airplanes--we have big airplanes at Dover Air 
Force Base and a lot of other places where PFOAs get into the 
groundwater that they use with respect to the airplanes, and 
all we are asking for is, within 2 years, let's have a clean 
drinking water standard for PFOAs.
    Finally, I can never remember how to pronounce the name, 
but it is a paint stripper. I think it is called fluoride 
chlorine. I don't say a lot of good things about Scott Pruitt, 
but he actually started the process when he was the 
Administrator of EPA to get it off the shelves so that we 
wouldn't actually be selling it and exposing people who have 
died by the dozens in this country by being exposed to this 
stuff. That is a paint stripper. I think in that instance Scott 
Pruitt was on to something right, and I would really urge Mr. 
Wheeler to take the handoff and get the ball in the end zone.
    Thanks so much.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Thank you, Senator Carper.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, could I ask unanimous consent 
that my votes negative on Wheeler by proxy and Wright on proxy 
negative and positive on Fleming by proxy be changed to in 
person? It doesn't change the outcome.
    Senator Barrasso. Without objection.
    Senator Cardin. Thank you.
    Senator Barrasso. Thank you, Senator Cardin.
    I would like to submit for the record, finally, a letter 
that was to me and to the Ranking Member from the Auto Alliance 
and Driving Innovation. On behalf of the Alliance of Automobile 
Manufacturers, who represents 12 leading automakers that 
produce over 70 percent of light duty vehicles sold in the 
United States. The letter says, ``I want to express our support 
for the President's nomination of Andrew Wheeler to be the 
Administrator of the Environmental Protection Agency.''
    Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Carper. I don't object.
    I would ask unanimous consent to submit for the record 
similar statements from individual auto companies in this 
country with respect to this and one of the issues I have 
discussed here today is a 50 State solution for CAFE and fuel 
efficiency standards.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. If there is no one else who would like to 
make a comment, at this time, this hearing and business meeting 
is adjourned.
    I ask unanimous consent that the staff have authority to 
make technical and conforming changes to each of the matters 
approved today.
    With that, the business meeting is adjourned.
    [Whereupon, at 10:45 a.m. the Committee was adjourned.]
    [Legislation and related material submitted for the record 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                        <all>
</pre></body></html>
